fT

OCKLE

2311 Douglas Street Ne i E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est, 1955 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-231

ALADDIN MANUFACTURING CORPORATION,
MOHAWK CARPET, LLC, MOHAWK INDUSTRIES,
INC., AND SHAW INDUSTRIES, INC.,
Petitioners,

v.

THE WATER WORKS & SEWER BOARD OF THE
TOWN OF CENTRE AND THE WATER WORKS &
SEWER BOARD OF THE CITY OF GADSDEN,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7532 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of December, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY-State of Wabraska Dba wv Chih
RENEE J. GOSS 0. a
Notary Public

‘My Comm. Exp. September 6, 2023
Affiant

 

40287
